AFFIDAVIT

State of Florida
County of Broward

I, the undersigned, of lawful age and sound mind, hereby affirm and attest as
follows, as of September 13, 2021:
1. My legal name is Samantha V. Roussell.
2. My mailing address is 3421 SW 195th Ave, Miramar FL 33029.
3. On March 26, 2021, a Petition for Writ of Certiorari was sent by the
undersigned via USPS to the Supreme Court of Unites States.
4. On March 26, 2021, a copy of this petition was electronically filed to the
4DCA.
5. The foregoing information is true and correct as of the date hereof.
6. The undersigned is acting in good faith.

IN WITNESS WHEREOF, the undersigned executes this Affidavit as of the date
set forth above.

State of Florida, County of Broward
Sworn and subscribed to before me by means

Samantha V. Rmassell
3421 SW 195th/Ave.
Miramar, FL 33029
(786)260-5836

of physical presence on this
20^C by

day of SepkVvvWv

V- &so3scl\______

who presented 'TCq/uAk

GcgAVP

as identification. /”'\

RECEIVED
SEP 1 5 ?f171
BEATRI
CLERK
MY CON iwsmmiHV&GQy. rt, u.s.
EXPIRES: DEC 15, 2024
Bonded through 1st State Insurance

